No. 19-400
IN THE

Supreme Court of the United States
GARMIN USA, INC., ET AL.,
Petitioners,
v.
CELLSPIN SOFT, INC.,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
BRIEF IN OPPOSITION TO PETITION FOR
WRIT OF CERTORARI

JOHN J. EDMONDS
Counsel of Record
EDMONDS & SCHLATHER PLLC
355 South Grand Avenue, Ste. 2450
Los Angeles, CA 90071
(213) 973-7846
jedmonds@ip-lit.com
Counsel for Respondent
Cellspin Soft, Inc.

i.
QUESTION PRESENTED
Whether, on a motion for judgment on the
pleadings, patent claims should fail step two of
the Mayo/Alice test for lacking inventive concept
when well-pled facts establish an inventive
concept?

ii.
TABLE OF CONTENTS
Page
QUESTION PRESENTED ............................... i
TABLE OF AUTHORITIES ............................. ii
INTRODUCTION ............................................ 1
BACKGROUND ................................................ 7
A. Legal Background .................................. 7
B. Procedural Background.......................... 8
C. The Patents-in-Suit ................................ 9
THE PETITION SHOULD BE DENIED ......... 18
I.

PETITIONERS HAVE WAIVED
THEIR QUESTION PRESENTED............ 18
II. THERE IS NOTHING IN THE FEDERAL
CIRCUIT’S DECISION INCONSISTENT
WITH THIS COURT’S PRECEDENT ....... 18
III. PETITIONERS OVERSTATE AND
SPECULATE ABOUT INTERNAL
DIVISION AT THE FEDERAL
CIRCUIT ..................................................... 31
IV. PETITIONERS’ PERCEPTION OF THE
IMPORTANCE OF THE QUESTION
PRESENTED IS FLAWED ........................ 33
CONCLUSION .................................................. 38

iii.
TABLE OF AUTHORITIES
CASES
Aatrix Software, Inc. v. Green Shades

Page(s)

Software, Inc., 882 F.3d 1121
(Fed. Cir. 2018) .......................................... passim
Alice Corp. v. CLS Bank International,
573 U.S. 208 (2014) .................................. passim
Ashcroft v. Iqbal, 556 U.S. 662 (2009) ..... 3
Berkheimer v. HP Inc.,
881 F.3d 1360 (Fed. Cir. 2018) ................ passim
Bilski v. Kappos,
561 U.S. 593 (2010) .................................. 19,34,36
Chavez v. United States,
683 F.3d 1102 (9th Cir. 2012) ................... 3
Exergen Corp. v. Kaz USA, Inc.,
725 F. App’x 959 (Fed. Cir. 2018) ............. 21
Mayo Collaborative Servs. v. Prometheus
Labs., Inc., 566 U.S. 66 (2012) .................. passim
Teva Pharmaceuticals USA, Inc.
v. Sandoz, Inc., 135 S.Ct. 831 (2015) ........ 20

TABLE OF AUTHORITIES - Continued
STATUTES
35 U.S.C. § 101 .......................................... passim
35 U.S.C. § 102 ......................................... 2,20
35 U.S.C. § 103 ......................................... 2,30
35 U.S.C. § 112 .......................................... 2
RULES
Fed. R. Civ. P. 12(b)(6) ............................. 3,4
Fed. R. Civ. P. 12(c) .................................. 4
Fed. Cir. Rule 36 ....................................... 35

1

INTRODUCTION
A threshold fatal flaw with the Petition is
Petitioners’ waiver of the very issue they seek to
present. In the proceedings below, Petitioners
accepted Berkheimer and Aatrix as good law, and
they argued against the specificity and sufficiency
of the pled facts, in addition to making multiple
other arguments based upon the patents, their
prosecution history, and other assertions of
historical facts. Aside from waiver, Petitioners’
failure to assert their issue presented in the
proceedings below makes this a poor case for
review, especially since the Federal Circuit did not
squarely address the issue.
Petitioners’ attempt to justify their Petition
with the implication that Cellspin Soft, Inc.
(“Cellspin”) is somehow a bad actor undeserving of
justice is unpersuasive. Further, it is inaccurate.
Cellspin is a former leader in mobile blogging
software. The lead inventor of the patents-in-suit,
Gurvinder Singh, is also the founder and
president of Cellspin. Cellspin has every right to
protect its intellectual property rights. Cellspin’s
motives are certainly no worse than those who
unjustly seek a free ride on Cellspin’s intellectual
property.
In mentioning the district court’s fee award,
Petitioners again imply that Cellspin is somehow
undeserving of justice. However, the Federal
Circuit found the fee award to be deeply flawed,
Pet. App 27a-28a, which Petitioners have not
challenged.

2

The inventions of the patents-in-suit1 are not
“utterly routine” or “self-evident,” nor are they
fairly characterized by the unsubstantiated
pejoratives in the Petition. These are largely the
same unsubstantiated conclusions that persuaded
the district court to hold the claims ineligible. In
many instances, the district court largely repeated
the conclusions asserted by Petitioners in its
erroneous ruling.
A
fundamental
issue
with
deciding
inventiveness on the pleadings is that patents are
not required to specify, and thus they rarely
specify, the basis for the claims being inventive.
See, e.g., Pet. App. 23a (“As long as what makes
the claims inventive is recited by the claims, the
specification need not expressly list all the
reasons...”). In general, a patent applicant is
required to disclose her invention with sufficient
specificity to enable persons of ordinary skill in
the art to make and use the invention, and to
claim her invention within the written description
set forth in the specification. See 35 U.S.C. §112.
In general, the Patent Office allows claims when
they are deemed eligible, novel, non-obvious,
enabled and supported by written description. See
35 U.S.C. §§101-103 & 112. Unless the Patent
Office challenges eligibility, the applicant has no
reason to address the issue during prosecution. On
a motion for judgment on the pleadings based
The patents-in-suit are U.S. Patent Nos.
8,738,794; 8,892,752; 9,749,847 and 9,528,698. The
’794 Patent can be found at C.A. Appx. 280-293.
1

3

upon §101, courts will review the patent and its
prosecution history. Alleging well-pled facts in
the complaint is a just and proper vehicle for
patentee to bring highly relevant facts to the
attention of courts in the context of a motion for
judgment on the pleadings. Without this, the §101
deck is unfairly stacked against patentees, with
courts making decisions on inventiveness
uninformed by perhaps the most important facts
underlying inventiveness. This leads to incorrect
results which are contrary to the actual facts,
fairness and justice.
A fundamental and deeply flawed premise of
the Petition is that a court deciding a motion to
dismiss on the pleadings based upon §101 should
be able to consider and weigh all of the facts
stated in, or implied from, the text of the patent,
the prosecution history and other outside sources
such as textbooks, and it should consider
unspecified and perhaps unarticulated facts from
its experience and common sense, but it should
not consider well-pled facts in the complaint. This
would violate the longstanding, well-founded
principle that for motions to dismiss on the
pleadings, well-pled facts in the complaint must
be accepted as true. See, e.g., Ashcroft v. Iqbal,
556 U.S. 662, 678, 129 S.Ct. 1937 (2009); Chavez
v. United States, 683 F.3d 1102, 1108 (9th Cir.
2012).2 This would also unjustly relegate a class of
Most Petitioners had moved to dismiss Cellspin’s
complaints for failure to state a claim under Rule
12(b)(6), but Garmin moved for judgment on the
2

4

facts – ones that would likely favor eligibility –
from consideration. The veracity of well-pled facts
can of course be tested, as with any other case, at
later proceedings, including with sworn proof.
Petitioners misunderstand the Federal Circuit’s
ruling in this case. They suggest that mere
allegations of inventiveness are now sufficient to
defeat a motion to dismiss. To the contrary, the
Federal Circuit held that the district court erred
in not accepting “specific, plausible factual
allegations about why aspects of its claimed
inventions were not conventional.” Pet. App. 23a24a.
Petitioners’ suggestion of division in the
Federal Circuit is overstated.
It is also
speculative, because the panel opinion for this
case was unanimous, and Petitioners did not
request rehearing.
The lack of en banc
consideration by the Federal Circuit also weighs
against certiorari review.
Petitioners’ arguments about patent eligibility
being a question of law lack clarity, and fail to
frame proper issues for review of this case. This
case does not present a good vehicle for
Petitioners’ attempted wholesale assault on facts
being put forth by patentees – either by way of
pleadings under Rule 12(c). Since the analysis
under Rule 12(b)(6) and Rule 12(c) was
“substantially identical” in this case, see Pet. App
16a, dismissal for failure to state a claim and
judgment on the pleadings are collectively referred
to herein as judgment on the pleadings.

5

well-pled facts in this case involving judgment on
the pleadings, or by way of sworn proof in other
cases involving later proceedings – being
considered in connection with their desired
“streamlined,” myopic determination of eligibility.
To state that eligibility is a question of law misses
that, “[w]hile the ultimate determination of
eligibility under §101 is a question of law, like
many legal questions, there can be subsidiary fact
questions which must be resolved en route to the
ultimate legal determination.” Aatrix Software,
Inc. v. Green Shades Software, Inc., 882 F.3d 1128
(Fed. Cir. 2018)
Patent eligibility, and specifically the issue of
inventiveness relevant to this case, cannot be
decided without regard to facts, including
historical facts at the time of invention, which
may have been many years ago. In motions to
dismiss on the pleadings, litigants routinely make
factual assertions about issues such as the scope,
content and capabilities of prior art, routineness,
conventionality and inventiveness. Moreover,
judges deciding such motions necessarily draw
upon their own perceptions and recollections of
historical and technological facts. Further,
petitioners admit that outside sources such as
textbooks, “experience” and “common sense” are
often considered. However, judges are often ill
equipped to adjudge the inventiveness of
inventions often made many years prior, without
the benefit of historical facts. For example,
Cellspin’s patents-in-suit are continuations of a
2008 non-provisional application and they claim

6

priority to a 2007 provisional application.
Petitioners’ desire for a mechanism to cheaply
“knock out” patents they are accused of infringing
does not justify depriving patentees of their
intellectual property rights when the facts do not
warrant the deprivation. If the facts dictate that
the patent claims have a sufficient inventive
concept, then the claims should survive step two of
the Alice/Mayo framework. Barring consideration
of perhaps the most relevant facts in the interest
of cheaply “knocking out” patents is not a just
means to a desirable or legitimate end.
Petitioners’ suggestion that this case be
considered in tandem with Berkheimer is ill
advised. See HP Inc. v. Berkheimer, No. 18-415.
Aside from Petitioners having waived the issue
they seek to frame, Berkheimer presents markedly
different issues, notwithstanding Petitioners’
attempt to frame essentially the same issue while
arguing numerous markedly different issues in
their Petition. Berkheimer primarily concerns the
consideration and weighing of factual evidence in
summary
judgment
proceedings
involving
eligibility. See Berkheimer v. HP Inc., 890 F.3d
1369 (Fed. Cir. 2019). Such matters involve
different burdens, different types of evidence,
different legal standards and different evidentiary
considerations. Berkheimer cannot possibly
implicate whether any facts outside of a patent
(and possibly its prosecution history) can be
considered when determining inventiveness. If no
other facts could be considered, it would be
impossible to fairly adjudge inventiveness in cases

7

such as this one, or at a minimum the deck would
be unfairly stacked against the patentee,
including as noted above. The summary judgment
issues implicated by Berkheimer are not
sufficiently similar to the judgment on the
pleadings issues in this case to merit
consideration in tandem.
Petitioners’ suggestion that this case be
considered even if certiorari is denied for
Berkheimer is also ill advised. First, as noted
above, Petitioners have waived the issue they seek
to frame for review. Second, their Petition lacks
legal or factual merit.
Third, although the
Federal Circuit did hold that the district court
erred in refusing to consider Cellspin’s well pled
facts, the Federal Circuit did not indicate that its
de novo review would have affirmed the district
court in the absence of the facts taken as true
from Cellspin’s Complaints. Fourth, the mandate
has already issued for these cases, so it is not
possible to return them to the judgment on the
pleadings stage.
BACKGROUND
A. Legal Background
To distinguish between eligible and ineligible
patent claims, this Court has fashioned a two-step
test. Alice, 573 U.S. at 217–18 (citing Mayo
Collaborative Services v. Prometheus Laboratories,
Inc., 566 U.S. 66, 72–73,77–79, 132 S.Ct. 1289
(2012)). At step one of the Alice/Mayo framework,
courts ask whether the claim is directed to a

8

patent-ineligible concept such as an abstract idea.
Id. at 217. If so, they go to step two, which has
been described as search for an “inventive
concept,” i.e., an element or combination of
elements that is sufficient to ensure that the
patent in practice amounts to significantly more
than a patent upon the ineligible concept itself. Id.
at 217–18; Mayo, 566 U.S. at 73. At step two, a
court must consider the claim elements both
individually and as an ordered combination to
determine whether the additional elements
transform the nature of the claim into a patenteligible application. Alice, 573 U.S. at 217–18.
Deciding whether claims recite an “inventive
concept,” or something more than well-understood,
routine, conventional activities previously known
to the industry may turn on underlying questions
of fact. Aatrix, 882 F.3d at 1128.
B. Procedural Background
In 2017, Cellspin filed suit against Petitioners
asserting against each infringement of one or
more of the patents-in-suit. Petitioners moved
under Federal Rule of Civil Procedure 12 to
dismiss their respective cases on the pleadings,
alleging ineligibility, namely that the asserted
claims are directed to an abstract idea which
lacked inventiveness because it was allegedly
implemented by software applications run on
Bluetooth enabled cellular phones and cameras.
The district court, largely adopting the
conclusory arguments proffered by Petitioners,
held all claims to be ineligible.

9

The Federal Circuit affirmed under Alice/Mayo
step 1, but reversed under step 2, including as
follows:
While we do not read Aatrix to say that any
allegation about inventiveness, wholly
divorced from the claims or the specification,
defeats a motion to dismiss, plausible and
specific factual allegations that aspects of the
claims are inventive are sufficient. Id. As
long as what makes the claims inventive is
recited by the claims, the specification need
not expressly list all the reasons why this
claimed structure is unconventional. In this
case, Cellspin made specific, plausible
factual allegations …
Pet. App 23a. Appellees mischaracterize Cellspin’s
appeal to the Federal Circuit by implying that the
only issue raised was the district court’s refusal to
consider Cellspin’s well pled facts. To the
contrary, Cellspin argued that the District Court’s
decision was incorrect based upon the patents,
their prosecution history and the well-pled facts.
C. The Patents-in-Suit
Petitioners mischaracterize the patents-in-suit,
including as evidenced by the contrary
characterization
by
the
Federal
Circuit.
Petitioners’ argument that the claims “boil down”
to acquiring data by generic devices; transferring
data through generic technologies, and publishing
data to generic devices is unfounded, and it lacks
any meaningful comparison to actual claim

10

limitations.
A diagram showing the inventive way in which
the ‘794 claim 1 method is performed is as follows:

I!)"°""
•

e
--·
~

etwtooth ( ..lu\,u

llulftOOlh O..t.a Optut9

' 794 Claim 1
M ethod Claim

.,_.

t.::1
f.J

-(~------~~

• ········IE:)·······•
~7

.........
UM:•..,tor~,~•~11'1

.....

•on~rdo.,,,c.....,

•

lte«l'NThfl &IIIWS.,,W:.Nf

"-0...c-:,n-,ft'Offlthc
,.,,.. 0,C,.(. . . l),,"(,e

‘794 claim 1, which the Federal Circuit deemed
as exemplary, is thus directed to, inter alia, a nonabstract, improved method of hardware, software,
mobile network architecture, and mobile
networked
communications
comprising
transferring newly captured data from an
Internet-incapable data capture device to an
Internet server via a separate, intermediary
Internet-capable mobile device by pushing event
notifications within an already-paired Bluetooth
connection between the data capture device and

11

mobile device.
Multiple meaningful benefits result, i.e., flow
from the technological improvements, inventive
concepts, and concrete applications of inventive
concepts of the claims.
First, the inventions of the claims result in
power and battery savings for data capture
devices. One reason is that the data capture
device does not require cellular equipment, such
as a transceiver or antenna, as uploading to
websites is done by the mobile device, not by the
data capture device. Since cellular transmissions
use a lot of battery power, eliminating such
equipment from the capture device saves battery
resources.
Further, a significant amount of processing
workload in the system described in the claims is
offloaded to the mobile device running a software
application, comprising: (i) active listening for
event notification signals for new data from the
data capture device is performed on the mobile
device; (ii) polling is initiated by the mobile device;
(iii) requests for new data are initiated by the
mobile device; (iv) adding user identifiers to the
new data is done by the mobile device; (v) adding
website information to the new data is done by the
mobile device; (vi) converting data to cellular data
format is done on the mobile device; (vii) applying
and using HTTP is done on the mobile device; and
(vii) using the GUI on the mobile device.
Further, the one-to-one, secure Bluetooth
pairing of the data capture device and mobile
phone, and the using of event notification, polling,

12

and/or request-response techniques increases,
inter alia, the life and longevity of batteries of
capture devices, including because, with the
claims, the capture device does not have to
continually broadcast data to all nearby Bluetooth
devices, or, can determine if the desired mobile
device is either out of range or incapable of
receiving Bluetooth data, for example because it is
turned off.
Second, the claims result in cost savings,
including because their inventions: (a) eliminate
the need for data capture devices to have a
cellular equipment to upload data directly since
the claims leverage the existing mobile/cellular
connection of the user’s mobile device; (b)
eliminate the need to pay for extra monthly
cellular lines/fees to the wireless operator to
upload data from capture devices directly; (c)
minimize the need for processing capacity and
memory on the capture device because data is
stored and converted for HTTP transmission, and
user information and website details are stored
and processed, on the mobile device, not the data
capture device; and (d) eliminate the need for
removable memory housing in the Internetincapable data capture device, including because
the data is transferred between the data capture
device and Internet-capable mobile device securely
over a paired, short-range (e.g., Bluetooth)
wireless connection.
Third, the combination of all the derived
benefits mentioned above make the Internetincapable data capture device smaller, less

13

complex, more focused on data capture, more
efficient, and/or less expensive to purchase,
operate, and use.
Fourth, the claimed inventions allow posting
Internet content captured while an Internetincapable data capture device, such as a camera,
is capturing data, including when it may be
impractical, undesirable, or impossible to
physically plug the data capture device into
another device, such as a computer, with Internet
capabilities, including in “real time” situations,
including situations that could jeopardize the
expensive and vulnerable components of the
Internet capable device.
Fifth, including through the use of event
notifications, polling, and/or request-response over
a paired connection, the inventions of the claims
allow for automatically detecting capture of data,
transferring the data to the mobile device, and
“publishing the data and multimedia content on
one or more websites automatically or with
minimal user intervention.”
The specification suggests use of conventional
data capture or mobile devices, -but
the
-applications running on, and methods and
functions of, those devices are not stated to be
conventional,
nor
are
they
conventional.
Conventional solutions are represented by
background art in the specification and in the
Kennedy prior art featured during prosecution.
As noted in the prosecution history:
…Conventional wisdom was to not have a
constant BT connection between devices. On

14

the contrary, conventional wisdom was to
initiate the connection when required, use
the connection and then terminate the
connection to conserve battery charge on the
devices…. However, applicant in his initial
disclosure in 2007 took the opposing view…
Including as noted in the prosecution history
and in Cellspin’s well-pled facts, unconventional
aspects of the combinations embodied in the
claims comprise: (a) having paired Bluetooth
connections between devices as a pre-requisite
before data is acquired by the data capture device,
and maintaining the Bluetooth paired connection
on a continuous basis, including when event
notifications, polling, and requests/responses for
newly acquired data are occurring; (b) publishing
newly captured data involving the ordered
combination of elements, including the timing of
pairing the two devices and using cryptographic
techniques; (c) the mobile device detecting new
data via event notifications, polling, and/or
requests/responses on the data capture device,
where conventional wisdom involved affirmative
steps taken by the capture device (e.g., pushing
newly captured data) or in connection with the
capture device (e.g., using portable storage media
or direct, physical connection); and (d) using an
Internet protocol (e.g., HTTP) in transit at the
mobile device and adding website related user
information at the intermediary transit mobile
device, where conventional wisdom involved
generating Internet-formatted data at the data
capture device.

15

Further, for cameras in 2007, conventional
wisdom was (a) to incorporate better cameras
inside mobile device, but it was not conventional
wisdom for camera devices to, inter alia,
cryptographically authenticate physically separate
Internet-connected cellular phones; and/or (b) to
incorporate the GUI inside the camera, but it was
NOT conventional wisdom for cellular phones to
provide a GUI for the photos/videos captured on
physically separate camera devices.
Appellees misunderstand the import and
context of the words “automatically or with
minimal intervention” in the specification. Indeed,
this is one benefit of the claimed invention, but
there are many other benefits, including when one
juxtaposes the claimed inventions against what
was conventional in the prior art.
Contrary to what Petitioners’ contend, the
patents do not involve automating a prior manual
process, nor do they teach or claim merely use of
known technologies in conventional ways. The
manual process available in 2007 and described in
the specification is illustrated in the following:

16
State of the Art in 2007
Ste p 2: T•h Memory Stick Out

Step I : Me Photo

Step 4: V5e PC SoftwJre to
Download Pktures on PC

II

•

--

Step S: Go to Website on your PC

r-~:---~-~-:;!

•-:=--

l ; OfJIH ~

--

Step 3 ; Insert Memory Stick in PC

Step 6: Stien Photos to Upload

-;.if"-;:--• .... "\

Step7: Uploodtowcboitc

g-_ .- ,,;;;,., ---.....
. . . .. DJ!

The claims amount to significantly more than
merely automating this, or another, manual
process. In fact, they involve very different
processes.
For example, the Kennedy prior art cited during
the prosecution of the ‘794 patent, which is
evidence of the state of the art at the time,
functioned as follows:

17
Prior Art sited by USPTO : "KennedY" Teaching
Portable Electronic Device 1751 Data
Capture Device

Intermediate
Electronlc Device

[Q]

1501 Mobile Device

Camera
Memory
reaching
Threshold
"lnitiatesa

{

connection to the
cell phone,trilnsfers
data and then
disconnect• 10032)

- - ----

from;- -

Tiransferarlpkturescaptured
-

memory threshold

-to.

-- -- •

Forwardat/Pictures Network (00 to Ce//u/ar

24/

Unlike the prior art, or state of the art, manual
processes disclosed by the Kennedy reference
addressed during prosecution history, the claimed
inventions comprise a data capture device
transferring or sending data to a mobile device
over a previously-established paired wireless
connection through an event notification,
request/response, and/or polling regime, using an
encryption key in pairing, cryptographically
authenticating the mobile device identity, and
translating captured data into HTTP format in
transit on the mobile device.
The claim elements, the benefits from the
claimed inventions, and the unconventional
aspects of them are substantially different than
what the evidence, i.e., manual processes and
Kennedy, shows to be the prior art or
conventional.

18

THE PETITION SHOULD BE DENIED
I. PETITIONERS HAVE WAIVED THEIR
QUESTION PRESENTED
A threshold fatal flaw with the Petition is
Petitioners’ waiver of the very issue they now
seek to present. Generally, appellate courts do not
consider issues not passed on below. See, e.g.,
Singleton v. Wulff, 428 U.S. 106, 120 (1976). In
the proceedings below, Petitioners accepted
Berkheimer and Aatrix as good law, arguing
merely against the specificity and sufficiency of
Cellspin’s pled facts. Petitioners fail to address the
issue of waiver, including any extenuating
circumstances that might possibly excuse their
waiver here.
Aside from waiver, Petitioners’ failure to assert
their issue presented in the proceedings below
makes this a poor case for certiorari review,
especially since the Federal Circuit did not
address Petitioners’ issue presented, since no one
had challenged Berkheimer and Aatrix as being
good law.
II. THERE IS NOTHING IN THE FEDERAL
CIRCUIT’S DECISION INCONSISTENT
WITH THIS COURT’S PRECEDENT
Petitioners inexplicably state that the Federal
Circuit erred in holding that patent eligibility is
not a question of law for a court. To the contrary,

19

the Federal Circuit explicitly followed its holding
in Aatrix, which states that, “[w]hile the ultimate
determination of eligibility under §101 is a
question of law, like many legal questions, there
can be subsidiary fact questions which must be
resolved en route to the ultimate legal
determination.” Aatrix, 890 F.3d at 1128. Despite
their argument to the contrary, Petitioners’ admit
that this Court has looked to “an old textbook and
a few modern book and articles” (in Alice) and “a
dictionary and an article” (in Bilski). In both
cases, the Court considered facts in reaching its
determination on eligibility. For Petitioners’ to
now argue that the eligibility determination must
be made devoid of any factual determination or
considerations is erroneous.
Petitioners’ argument that eligibility of
particular patent claims under §101 is merely a
matter of “statutory construction” lacks merit.
Patents are not statutes and the many legal
principles for statutory interpretation are
inapplicable to patents. This Court’s precedents
have addressed the scope and application the §101
statute. At issue in this case are subsidiary fact
questions relevant to the issue of eligibility,
including inventiveness.
Petitioners’
attempt
analogize
claim
construction with eligibility is unpersuasive,
including because these are very different
exercises. Further, the analogy weighs against
Petitioners’ position. Construing claims in a public
document differs markedly from determining
whether claim limitations recite activities that

20

were deemed inventive, well-understood, routine
or conventional in a particular field at a particular
point in time. The latter is a question of historical
fact, not a legal question of claim scope. Indeed, in
Mayo, this Court observed that “in evaluating the
significance of additional steps, the §101 patent
eligibility inquiry and, say, the § 102 novelty
inquiry might sometimes overlap.” 566 U.S. at 90.
Claim construction, by contrast, involves no such
overlap.
Moreover, claim construction also involves
extrinsic evidence and fact-finding. See, e.g., Teva
Pharmaceuticals USA, Inc. v. Sandoz, Inc., 135
S.Ct. 831, 838 (2015) (“…in patent construction,
subsidiary fact-finding is sometimes necessary”
and “all such subsidiary findings” must be
reviewed “under the ‘clearly erroneous’ standard.”)
In the Aatrix opinion that underlies the opinion
below, the Federal Circuit conceptualized patent
eligibility the same way, as noted above. Thus, if
patent eligibility is analogous to claim
construction, this would mean that extrinsic
evidence and fact-finding are sometimes necessary
to resolve subsidiary factual disputes.
In claim construction determinations, the judge
finds the facts, while in other types of invalidity
determinations (such as obviousness), the jury
finds the facts. In this case, the Federal Circuit
did not take issue with the District Court
addressing eligibility on a motion for judgment on
the pleadings, nor did it state that the ultimate
fact finder could not be a judge. The issue of
judges versus juries deciding eligibility issues is

21

not implicated by this case involving a motion for
judgment on the pleadings. The resolution of that
issue remains for a different case, having a
different history and procedural posture, on
another day. See, e.g., Exergen Corp. v. Kaz USA,
Inc., 725 F. App’x 959, 968 (Fed. Cir. 2018)
(“Whether the Seventh Amendment guarantees a
jury trial on any factual underpinnings of §101 is
a question which awaits more in-depth
development and briefing than the limited
discussion in this case.”).
Petitioners argue that the benefit of commonlaw guidance would be lost if the eligibility
decision were entrusted to jury verdicts. However,
as noted above, this case involved a motion for
judgment on the pleadings, not issues of judges
versus juries deciding eligibility questions or
subsidiary fact questions.
Although the Federal Circuit in this case
accepted that eligibility is a question of law,
Petitioners inexplicably deny this, attempting to
set up a conflict with Alice and Mayo due to their
use of “we.” To the contrary, setting aside the lack
of ripeness for Petitioners’ argument, nothing in
Alice or Mayo resolves, or even mentions, whether
patent eligibility is invariably a question of law.
The selection of a pronoun is not a holding.
Moreover, the use of the pronoun “we” likely
reflected that there were no disputed facts in
those cases, so the Court could resolve them as a
matter of law—the very reason they may have
been good vehicles for Supreme Court review.
Here, however, the facts are disputed.

22

Petitioners state that Alice and Mayo had no
suggestion that resolving eligibility on summary
judgment might be inappropriate because of some
genuine dispute as to any material fact. However,
it is more correct to say that the issues in Alice
and Mayo did not involve, one way or the other,
whether disputed factual issues might have
precluded
those
summary
judgment
determinations.
Traveling far afield from their question
presented, Petitioners argue that “Federal Circuit
accorded too much weight to the ‘conventionality’
piece of Alice step two.” Their specific complaint is
an allegation that “the Federal Circuit wrongly
indicated that an allegation that a claim element
is unconventional is sufficient to establish
eligibility at the motion to dismiss stage.” To the
contrary, the Federal Circuit’s focus on
unconventionality was in its addressing the
district court’s opinion, which had focused on that
very issue in an erroneous way. For example, the
Federal Circuit wrote:
[T]the district court … concluded that the
various claim elements … represent generic
computer components … [it] acknowledged
Cellspin’s argument that there was a factual
dispute about whether the “combination” of
these elements was “well-understood, routine
and conventional.”… But the district court
concluded that it “need not reach the issue”
Pet. App. 13a. Because the district court’s
opinion had hinged on conventionality, and
because it had erroneously failed to consider well

23

pled facts indicating unconventionality, the
Federal Court’s decision of course comments on
this most pertinent issue on appeal. In any event,
the Federal Circuit made clear that, “[a]s long as
what makes the claims inventive is recited by the
claims, the specification need not expressly list all
the reasons...” Pet. App 23a.
Petitioners’ next point is more telling, wherein
they dispute that “any piece of the eligibility test
is a question of fact.” Petitioners have no
explanation of what this means or how it would
work in the context of motions for judgment on the
pleadings or other contexts not before the Court
with this case. As already noted above, the
fundamental premise of the Petition is that a
judge deciding a motion to dismiss on the
pleadings based upon §101 should be able to
consider and weigh all sorts of facts stated or
implied from the text of the patent, the
prosecution history and other outside sources such
as textbooks, and she should consider unspecified
and perhaps unarticulated facts from her
experience and common sense, but she should not
consider well-pled facts in the complaint. Aside
from being completely unworkable, this would
violate longstanding, well-founded principles that
for motions to dismiss on the pleadings, well-pled
facts in the complaint must be accepted as true.
This would also unjustly relegate a single class of
facts– ones that would likely favor eligibility–
from consideration.
Next, Petitioners digress again into the issue of
whether courts or jurors are better positioned to

24

decide eligibility. However, as noted above, this
case involves a motion for judgment on the
pleadings, which is always decided by judges. The
Federal Circuit did not address whether a jury
would be the ultimate arbitrator of anything
related to eligibility. That issue is not ripe in this
case, and it remains for another case on a
different day.
Apparently attempting to anchor their broad
attack on juries potentially deciding eligibility to
this case involving the very different issue of a
motion for judgment on the pleadings, Petitioners
note Iqbal’s statement that, “[d]etermining
whether a complaint states a plausible claim for
relief … requires the reviewing court to draw on
its judicial experience and common sense.”
Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009). While
this is true, it is also black letter law that wellpled facts in a complaint must be taken as true on
a motion to dismiss on the pleadings. Notions of
judicial experience or common sense cannot
overcome this bedrock principle, which exists for
very good reasons, including that motions to
dismiss on the pleadings seek a summary
determination before the plaintiff has any chance
to put forth facts by way of documents, testimony
or affidavits. Furthermore, to the extent that
judicial experience or common sense are applied to
determining the historical question of whether
something was inventive years prior to when it
was invented, judges are poorly equipped to
decide such issues without also considering facts
brought forth by the parties.

25

Petitioners
argue
that,
“[w]here
the
specification outright says that some claim
limitation is conventional, any contrary allegation
is simply not plausible.” Here, they again stray far
afield from their question presented. Moreover,
the common specification of Cellspin’s patents
does not state that all claim elements were
conventional, nor does it state that the claimed
combinations were conventional.3
That Cellspin’s novel software-implemented
systems and methods may be implemented “in”
technologies that were known as “pervasive” does
not mean Cellspin’s novel software-implemented
systems and methods could have been
implemented
“with”
known
or
pervasive
technologies at the time of Cellspin’s invention.
That Cellspin’s inventive software-implemented
systems and methods may be implemented in
connection with a software application running on
a mobile phone and that they involve, in part,
Bluetooth connectivity, does not mean the
patented software-implemented systems and
methods, especially in combination, were known
or ubiquitous at the time of invention.
Petitioners’ argument that the patented
Courts should consider whether the claimed
elements “individually and as an ordered
combination” recite an inventive concept. Alice, 573
U.S. at 217, 134 S.Ct. 2347. See Pet. App. 25a
(“…implementing a well-known technique with
particular devices in a specific combination, like the
two-device structure here, can be inventive.”).
3

26

systems and methods run on “generic devices”
misses the point that common devices such as
mobile phones and capture devices, such as
electronic cameras, can be programmed to perform
inventive
methods
and
functions.
Under
Petitioners’ flawed logic, no computers or mobile
devices running inventive software applications
and performing inventive functions could ever be
eligible for patenting because they all ultimately
run on “generic” computers or mobile devices.
If Cellspin’s specification had actually
admitted that its claimed inventions were merely
conventional, it would not have been awarded a
patent in the first place. Further, the District
Court did not
- - find the factual allegations,
including those regarding unconventionality, in
Cellspin’s Amended Complaint were not plausible;
rather, it improperly refused to consider them at
all. Further, the Federal Circuit expressly found,
in its de novo review, that Cellspin’s well-pled
factual allegations were plausible. Pet. App. 23a.
The issue of plausibility of well-pled facts is
certainly not an issue well framed for certiorari
review in this case.
Petitioners’ stated desire for a mechanism to
cheaply “knock out” or “weed out” patents they are
accused of infringing is insufficient to justify
depriving patentees of their intellectual property
rights when the facts do not warrant that legal
determination. If the facts dictate that the patent
claims have a sufficient inventive concept, then
the claims should survive step two of the
Alice/Mayo framework. Barring consideration of

27

the facts in the interest of cheaply “knocking out”
patents is not a just means to a legitimate end.
Petitioners’ invitation for this Court to grant
certiorari to “clarify” certain issues not ripe in this
case violates basic principles of appellate
jurisdiction and the imprudence of advisory
opinions, and it seeks review based upon a legal,
factual, procedural and appellate record not well
framed for addressing such issues.
Petitioners first ask for a judicial declaration
that “not all” eligibility challenges will involve
questions of fact and that “many” can be resolved
simply based on the claims themselves and
intrinsic evidence. However, the opinion below
did not state that “all” eligibility challenges will
involve questions of fact. To the contrary, it states
that, “[w]hile we do not read Aatrix to say that
any allegation about inventiveness, wholly
divorced from the claims or the specification,
defeats a motion to dismiss, plausible and specific
factual allegations that aspects of the claims are
inventive are sufficient. Pet. App. 23a. Moreover,
Petitioners have made no showing, and indeed
they cannot show, that a de novo review by this
Court would result in a decision of ineligibility
based only on the claims themselves and intrinsic
evidence. Indeed, the Federal Circuit properly
acknowledged
there
are
facts
indicating
inventiveness that should preclude judgment on
the pleadings. Id.
Petitioners’ request for a judicial declaration that
“many” eligibility decisions can be solved based
only on the claims themselves and intrinsic

28

evidence is not an issue made ripe by this case,
nor is it well framed for certiorari review.
Petitioners next ask for a judicial declaration
that any question of fact on eligibility is for the
judge, not a jury, to decide. As noted above, this
issue is not ripe in this case, nor is it well framed
for certiorari review. In particular, this case
involves a motion for judgment on the pleadings,
which is decided by a judge.
Petitioners next ask for this Court to “encourage”
trial judges to decide the underlying fact questions
— and the overall eligibility question — early in
proceedings. However, no such encouragement is
needed, nor is it ripe in this case which involves
motions for judgment filed at the onset of the case.
Nor is this an issue properly framed or suited for
certiorari review.
Petitioners next go far afield from their question
presented, suggesting that the Federal Circuit
accepted legal conclusions rather than factual
assertions. Here, Petitioners puzzlingly request
certiorari review “to ensure that the Federal
Circuit applies the motion to dismiss standard
properly in this context.” As a threshold matter,
Petitioners have not shown that the Federal
Circuit accepted mere conclusions as facts. To the
contrary, the Federal Circuit cited a multitude of
specific, well-pled facts supporting inventiveness.
Pet. App. 21a-23a.
Further, this Court’s
precedents are clear that mere legal conclusions
are insufficient to overcome motions for judgment
on the pleadings, and there is no basis for
concluding that the Federal Circuit, or any other

29

lower courts, have strayed from this easily
understandable and bedrock principle.
Again going far afield from their question
presented, Petitioners puzzlingly allege that “the
Federal Circuit abjured judicial experience and
common sense” in reversing dismissal. However,
the district court’s dismissal order did not state
that it was relying upon judicial experience or
common sense to disbelieve Cellspin’s factual
allegations; rather the district court improperly
ignored them altogether. Further, Petitioners’
invitation to allow often times vague notions of
“judicial experience and common sense” to
overcome well-pled factual allegations at the
dismissal on the pleadings stage seeks to overturn
longstanding and well-founded jurisprudence
holding that, at the pleadings stage, well-pled
facts must be accepted as true.
Next, again going far afield from their question
presented, Petitioners make unsubstantiated and
unpersuasive assertions that the claims of the
patents-in-suit are “plainly ineligible.”
Here
again, they complain of the Federal Circuit’s
finding sufficient evidence that multiple claim
elements and combinations were unconventional.
As already noted above, the Federal Circuit
focused a significant amount of its opinion on this
issue because it had been the lynchpin of the
district court’s erroneous ruling. Here again,
Petitioners focus on alleged “admissions” in the
specification.
As already explained in detail
above, the specification does not admit that
everything about the claimed inventions was

30

conventional or that the claimed combinations are
conventional. As noted above, that Cellspin’s
novel software-implemented systems and methods
may be implemented “in” technologies that were
known or pervasive does not mean Cellspin’s novel
software-implemented systems and methods could
have been implemented “with” known or pervasive
technologies at the time of Cellspin’s invention.
Again, under Petitioners’ flawed logic, no software
application acting on a computer, cellular phone
or camera could ever be patent eligible, because
computers, cellular phones and cameras are
preexistent.
Again going far afield from their question
presented, Petitioners rehash multiple merits
issues straight from their prior merits briefing.
Here, suffice it to say that the facts cited by the
Federal Circuit, which are not the only facts that
must be considered on a de novo review of
eligibility, are clearly sufficient to justify
overturning the district court’s erroneous opinion.
At a minimum, the district court’s error in
refusing to consider Cellspin’s well-pled facts was
ample grounds for reversal.
Again going far afield from their question
presented, Petitioners allege that Federal Circuit
somehow confused the issue of patentable subject
matter under §101 with that of obviousness under
§103.” However, nothing from the actual opinion
indicates any such confusion. Petitioners’ confused
argument appears to assert that the Federal
Circuit should not have considered the technology
in existence at the time of the invention when

31

determining whether the claimed combinations
had an inventive concept over technology in
existence at the time of the invention. This is
simply absurd. Any analysis of inventiveness
must necessarily look to historical facts, including
the state of the art at the time of the invention
(which may be evidenced by, inter alia, prior art).
Indeed, most patents have internal discussions of
the prior art, and courts look to the prosecution
history – which is all about prior art – when
determining eligibility.
It is ironic that
Petitioners argue that judges should consult their
personal judicial experience and common sense
when deciding eligibility while somehow ignoring
the state of the art and prior art. It is also ironic
that Petitioners argue at length for ineligibility
based upon prior art discussed in the specification
while they simultaneously claim error in
considering other prior art. Moreover, in Mayo,
this Court observed that in evaluating the
significance of additional steps, the §101 eligibility
inquiry may “sometimes overlap” with validity
issues. 566 U.S. at 90. Petitioners have shown no
error in the Federal Circuit’s approach, and
indeed there was none.
III.

PETITIONERS OVERSTATE AND
SPECULATE ABOUT INTERNAL
DIVISION AT THE FEDERAL
CIRCUIT

Petitioners speculate about potential division
over this case because the Federal Circuit panel’s

32

opinion was unanimous, and Petitioners did not
request rehearing.
Petitioners’ reliance upon Judge Reyna’s
dissent from the denial of rehearing en banc in the
Aatrix case is misplaced.
That dissent was
premised largely upon disagreement with the
Aatrix majority’s “broad statements on the role of
factual evidence in a §101 inquiry.” See Aatrix,
890 F.3d at 1365 (Reyna, J., dissenting from
denial of rehearing en banc). However, there is no
indication that such “broad statements” were also
made by the Federal Circuit in this case.
Petitioners’ reliance upon Judge Reyna’s
dissent from the denial of rehearing en banc in
Berkheimer is also misplaced.
There, Judge
Reyna noted that “[p]erhaps the single most
consistent factor in this court's §101 law has been
our precedent that the §101 inquiry is a question
of law.” Berkheimer, 890 F.3d at 1377. However,
as noted above, in this case the Federal Circuit
explicitly acknowledged that eligibility is a
question of law.
Further, the dissents from the Federal Circuit’s
denials of rehearing en banc in Berkheimer and
Aatrix indicate, if anything, that the issues raised
by those cases need more development in the
lower courts, including in the Federal Circuit,
before they are suitable for this Court’s review.
Petitioners again cite to various commentators,
some of whom likely often represent defendants in
eligibility challenges, who complain primarily of
Berkheimer, and who suggest Supreme Court
review of various issues from Berkheimer and

33

Aatrix. Such commentators do not seem focused
upon Supreme Court review of this particular
case, with its fairly narrow opinion and measured
approach in line with precedent. HP’s petition for
certiorari review of the Berkheimer case is
currently before this Court. The briefing on
certiorari for this case is simply not the forum to
argue over the propriety of granting certiorari for
Berkheimer.
Further, Petitioners cannot point to any other
Court of Appeals that disagrees with the wellestablished rule allowing consideration of wellpled facts on motions to dismiss based on the
pleadings.
IV. PETITIONERS’ PERCEPTION OF THE
IMPORTANCE OF THE QUESTION
PRESENTED IS FLAWED
Setting aside all the flaws with Petitioners’
question presented guiding certiorari review of
this case, their assertion of importance is
overstated. Here again, Petitioners’ attempt to
justify their unfounded Petition with the
implication that Cellspin is somehow a bad actor
undeserving of justice is unpersuasive. Further, it
is inaccurate. As noted above, Cellspin is a former
leader in mobile blogging software; and the
inventor of the patents-in-suit, Gurvinder Singh,
is also the founder and president of Cellspin.
Cellspin has every right to protect its intellectual
property rights. Cellspin’s motives are certainly

34

no worse than those who unjustly seek a free ride
on Cellspin’s intellectual property.
As to the alleged impropriety of enforcing the
patents-in-suit, aside from the Federal Circuit’s
proper reversal of the district court’s ineligibility
ruling, it should be noted that three of the four
patents issued from the Patent Office after this
Court’s Alice opinion, all four of the patents issued
after this Court’s Bilski opinion, and all four are
presumptively valid. See Alice Corp. Pty. v. CLS
Bank International, 573 U.S. 208, 134 S.Ct. 2347
(2014); Bilski v. Kappos, 561 U.S. 593, 130 S. Ct.
3218 (2010).
The “crisis” alleged by Petitioners, again citing
commentators who likely practice primarily on the
defense side of patent cases, concerns too many
patent infringement cases, which Petitioners
attribute, without any data, to ineligible patents
being asserted.
Petitioners proposed solution to this alleged
“crisis” is summary execution of patents on
eligibility grounds without consideration of
inconvenient facts, including well-pled facts
relating to inventiveness. As noted above, a
fundamental issue with deciding inventiveness on
the pleadings is that patent applicants have no
reason to state a basis for eligibility in the
specification or to argue eligibility during
prosecution unless the issue is raised by the
Patent Office. Petitioners’ proposal to limit the
eligibility analysis to the patent and prosecution
history conveniently excludes relevant evidence of
inventiveness that is inconvenient to their agenda.

35

Alleging well-pled facts in the complaint is the
just and proper vehicle for the patentee to bring
highly relevant facts to the attention of the court
on a motion for judgment on the pleadings.
Without this, the §101 deck is unfairly stacked
against the patentee, with courts making
decisions on inventiveness uninformed by perhaps
the
most
important
facts
underlying
inventiveness. This leads to incorrect results
which are contrary to the actual facts. To make
matters worse, if a patent case is dismissed on the
pleadings, the patentee must appeal to the
Federal Circuit, which issues a high percentage of
affirmances without explanation. See Fed. Cir.
Rule 36. It is also important that the context of
this case is a motion on the pleadings. Despite
Petitioners’ parade of horrors, nothing stops them
from further challenging the eligibility of the
patents-in-suit, with facts, as this case moves
forward.
Further, Petitioners’ alleged “crisis” involving
NPEs misses the fact that the unjustly myopic
eligibility review they propose would apply to all
patent holders, not just NPEs.
Petitioners
state
they
are
“innovative
companies that create products and jobs.” From
Cellspin’s point of view, Petitioners are taking a
free ride on Cellspin’s intellectual property.
Petitioners’ stated ends do not justify unjust
means that unfairly undercut the ability of
patentees to bring highly relevant evidence of
innovation to the attention of Courts deciding
eligibility issues.

36

Petitioners note a decreasing grant rate for
§101 motions without any data for the decrease
being attributable to claims lacking inventive
concept being allowed to proceed past summary
proceedings. An also plausible explanation for a
decreasing grant rate of §101 motions is that
Bilski, Alice and Mayo, and their many progeny,
have taken hold and fewer ineligible patents are
being asserted than in years past.
The asserted decrease in grants of motions for
judgment on the pleadings post-Aatrix is evidence,
if anything, that courts are rightly considering
well-pled factual allegations that refute unfounded
assertions that inventive concept is lacking.
Petitioners have no data to suggest that such
pleadings have stated inaccurate facts or facts that
could not be backed up with admissible evidence.
Fundamentally, Petitioners bemoan their inability
to argue lack of inventive concept while patentees
are muffled by an inability to bring highly relevant
facts to the attention of courts.
V. WHETHER OR NOT THE COURT GRANTS
CERTIORARI
IN
BERKHEIMER,
IT
SHOULD NOT HEAR THIS CASE.
A threshold fatal flaw with the Petition is
Petitioners’ waiver of the very issue they seek to
present. Because Petitioners did not argue their
issue presented in the courts below, this case
presents a poor vehicle for addressing it, even if
latched onto Berkheimer. Further, Petitioners’

37

suggestion that this case be considered in tandem
with Berkheimer is ill advised.
Berkheimer
presents
markedly
different
issues,
notwithstanding Petitioners’ attempt to initially
frame essentially the same issue while arguing
numerous, markedly different issues in their
Petition. Berkheimer primarily concerns the
consideration and weighing of factual evidence in
summary
judgment
proceedings
involving
eligibility. See Berkheimer, 890 F.3d 1369. Such
matters involve different burdens, different types
of evidence, different legal standards and different
evidentiary considerations. Berkheimer cannot
possibly implicate whether any facts outside of a
patent (and possibly its prosecution history) can
be considered when determining inventiveness. If
no other facts could be considered, it would be
impossible to fairly adjudge inventiveness in cases
such as this one, or at a minimum the deck would
be unfairly stacked against the patentee,
including as noted above. The summary judgment
issues implicated by Berkheimer are not
sufficiently similar to the judgment on the
pleadings issues in this case to merit
consideration in tandem.
Petitioners’ rationale for certiorari being
granted in this case even in the absence of it being
granted in Berkheimer is weak and unpersuasive.
First, as noted above, Petitioners have waived the
issue they seek to frame for review. Second, their
Petition lacks legal or factual merit.
Third,
although the Federal Circuit did hold that the
district court erred in refusing to consider

38

Cellspin’s well pled facts, the Federal Circuit did
not indicate that its de novo review would have
affirmed the district court in the absence of the
facts taken as true from Cellspin’s Complaints.
Fourth, the mandate has already issued for these
cases.
Petitioners basically argue that patent
litigation is expensive, and that unidentified
NPEs might obtain “leverage” if their patent
claims are not summarily dismissed on eligibility
grounds at the earliest stage of the case
notwithstanding the factual basis for inventive
concept being present.
Finally, Petitioners summarily argue that this
Court should hold their petition in abeyance
pending the resolution Berkheimer because it “will
unquestionably affect the outcome of this one.”
This is mere speculation on the part of Petitioners.
Further, Petitioners again miss the fact that they
waived the very issue they seek to present, which
is presumably the issue from Berkheimer they
contend would affect this case in some unspecified
way. Had Petitioners really desired to hold these
cases in abeyance they would have moved to stay
the mandate. As it stands, the mandate has
issued; however, the district court has stayed
these cases pending certiorari review. There is no
just reason or good cause for holding these cases
in lengthy abeyance, especially when the mandate
for each has already issued.

39

CONCLUSION
The petition for a writ of certiorari should be
denied.
Respectfully submitted,
JOHN J. EDMONDS
Counsel of Record
EDMONDS & SCHLATHER PLLC
355 S. Grand Ave., Ste. 2450
Los Angeles, CA90071
(213) 973-7846
jedmonds@ip-lit.com
Counsel for Respondent Cellspin Soft, Inc.

